         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report

Management of Bonneville Power
Administration's Information
Technology Program




DOE/IG-0861                            March 2012
                                  Department of Energy
                                    Washington, DC 20585
                                         March 26, 2012


MEMORANDUM FOR THE SECRETARY


FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Management of Bonneville Power
                         Administration's Information Technology Program"

INTRODUCTION AND OBJECTIVE

The Bonneville Power Administration provides about 30 percent of wholesale electric power to
regional utilities that service homes, hospitals, financial institutions, commercial entities and
military installations in the Pacific Northwest. Bonneville makes extensive use of various
information systems in its daily operations, including electricity transmission systems, systems
that enable the marketing and transferring of electrical power, as well as administrative and
financial systems. Should any of these information systems be compromised or otherwise
rendered inoperable, the impact on Bonneville's customers could be significant.

Prior reviews have identified weaknesses related to Bonneville's information technology (IT)
program. For instance, our report on Cyber Security Risk Management Practices at the
Bonneville Power Administration (DOE/IG-0807, December 2008) identified risk management
weaknesses related to Bonneville's Federal requirement to certify and accredit its information
systems for operation, a problem that could adversely impact the security of critical systems and
the data contained therein. In this light, we initiated this audit to determine whether Bonneville
effectively and efficiently implemented its IT program.

RESULTS OF AUDIT

Bonneville had taken steps to address the cyber security concerns raised in our prior review. For
instance, officials had performed detailed assessments of security controls on various general
support systems. However, our current review identified new concerns in the areas of cyber
security, project management and procurement of IT resources:

   •   Bonneville had not implemented controls designed to address known system
       vulnerabilities. Specifically, technical vulnerability scanning conducted on nine
       applications used to support business functions such as financial management, human
       resources and security management identified a significant number of high-risk
       weaknesses in the areas of access controls, patch management and validation of user
       input;
                                                2


   •   Operational security controls designed to protect Bonneville's systems had not always
       been fully implemented. For instance, testing of five systems identified issues with
       configuration management, least privilege, and contingency and security planning;

   •   Several system development efforts suffered from cost, scope and schedule issues, due in
       part to weaknesses in project planning and management. For example, we noted that one
       project was completed more than 16 months behind schedule and approximately $7
       million over the initial budget at the time the development effort was approved, even
       though the scope of the effort had been significantly reduced; and,

   •   Bonneville's IT software was not always procured in a coordinated manner, resulting in
       increased security risks. Specifically, we identified a lack of adherence to approved
       software listings for procurements.

The issues identified were due, at least in part, to inadequate implementation of policies and
procedures related to security and project management. For instance, we found that responsible
officials were not taking action to remediate or mitigate known system security vulnerabilities, as
required. We also determined that inadequate planning of resource requirements prevented
Bonneville from effectively managing its IT program. Specifically, Bonneville had not allocated
sufficient resources to cyber security and system development efforts to help ensure that
effective management practices were implemented. Furthermore, we found that Bonneville’s
Office of the Chief Information Officer did not have authority over the entire IT program,
including certain cyber security and procurement functions.

Without improvements, Bonneville's systems and information may be exposed to a higher than
necessary level of risk of compromise, loss, modification and nonavailability. Many of the
security weaknesses we identified could allow an individual with malicious intent, particularly
an insider, to compromise systems and obtain unauthorized access to potentially sensitive
information. Utilizing unapproved software can result in additional costs and a less secure
computing environment through the introduction of vulnerabilities in unsupported software.

In addition, Bonneville may continue to experience problems related to project management and
spend more than necessary on IT resources. While we did not identify a direct correlation
between the reported project slippages and a failure in management's decision-making processes,
the changes to scope and schedule did impact management's ability to effectively manage its
limited resources and may have affected its ability to initiate other projects.

Prior to initiating our audit, we received several allegations regarding IT management
improprieties at Bonneville. Through our testing, we were able to substantiate certain aspects of
the allegations as they related to security planning. Our findings in that area have been
incorporated into our results and are discussed with more specificity in the body of our report.
The remainder of the allegations, described in Appendix 1, were not substantiated.
                                                 3


Due to security considerations, details regarding the specific systems for which vulnerabilities
were identified have been omitted from this report. Management officials, however, were
provided detailed information regarding the issues we identified and had initiated certain
corrective actions. In addition, officials were implementing compensating security controls to
help limit access to potentially sensitive data. While these are positive efforts, additional steps
are necessary to reduce risk to information systems and improve project management and
acquisition practices. As such, we made several recommendations designed to address the issues
outlined in our report. These recommendations, generally considered to be best practices in the
Federal IT environment, should, if fully implemented, enhance management of Bonneville's IT
program.

MANAGEMENT REACTION

Management concurred with the report's recommendations and indicated that corrective action
would be taken. Management commented that, though it believed it had historically resourced
projects adequately, it was committed to improving demand planning capability. Further, while
management stated that the positioning and established authority of Bonneville’s Chief
Information Officer was appropriate, it commented that it was working to extend authority over
the entire IT program.

Management disagreed with several of the conclusions in the report, particularly in the area of
project management. For example, management commented that over 80 percent of completed
IT projects were accomplished within schedule, budget and scope. We found, however, that
management's re-baselining of projects resulted in projects being reported as completed within
set parameters even though these projects may have significantly exceeded initial cost, scope and
schedule estimates. As a result, the importance of effective project planning was significantly
devalued, and systems did not always provide the desired capabilities when expected. As
appropriate, we modified our report in response to management's comments. Bonneville's
comments and our rebuttals to management's disagreements are summarized and more fully
discussed in the body of our report. Management's comments are included in Appendix 4.

Attachment

cc:   Deputy Secretary
      Associate Deputy Secretary
      Administrator, Bonneville Power Administration
      Chief Health, Safety and Security Officer
      Chief Information Officer
      Chief of Staff
REPORT ON MANAGEMENT OF BONNEVILLE POWER
ADMINISTRATION'S INFORMATION TECHNOLOGY PROGRAM


TABLE OF
CONTENTS


Cyber Security, Project Management and Procurement

Details of Finding ............................................................................................................................1

Recommendations ..........................................................................................................................10

Comments ......................................................................................................................................11


Appendices

1. Other Matters ...........................................................................................................................15

2. Objective, Scope and Methodology .........................................................................................16

3. Prior Reports ............................................................................................................................18

4. Management Comments ..........................................................................................................20
MANAGEMENT OF BONNEVILLE POWER ADMINSTRATION'S
INFORMATION TECHNOLOGY PROGRAM


Program              The Bonneville Power Administration (Bonneville) had taken
Improvement          positive steps to strengthen its cyber security program. In
                     particular, we noted that corrective actions had been taken to
                     resolve weaknesses identified during our audit of Cyber Security
                     Risk Management Practices at the Bonneville Power
                     Administration (DOE/IG-0807, December 2008). Specifically,
                     Bonneville had:

                          •   Enhanced management attention over the cyber security
                              program by appointing its Chief Operating Officer as the
                              official responsible for accepting risk-based decisions and
                              authorizing systems for operation;

                          •   Educated information system owners about their
                              responsibilities for managing cyber security risks related
                              to information systems and hired personnel in its cyber
                              security group to enhance the group's skill set; and,

                          •   Developed various system security plans and initiated
                              efforts to verify that necessary security controls were
                              sufficiently tested for each system through security
                              assessments and continuous monitoring activities.

                     Bonneville also enhanced management and oversight of its
                     information technology (IT) projects through the establishment of
                     the Project Management Office (PMO). In addition, the
                     establishment of the Agency Prioritization Steering Committee
                     provided senior-level approval and oversight of planned and
                     ongoing projects.

Cyber Security,      Our review of Bonneville's IT program identified several areas of
Project Management   concern related to cyber security, project management and
and Procurement      procurement of IT resources. In particular, required security
                     controls designed to protect Bonneville's systems had not always
                     been implemented. Technical vulnerability testing and reviews of
                     process-oriented security controls identified various weaknesses
                     that increased the risk to those systems. In addition, project
                     management weaknesses contributed to significant increases in
                     cost, scope and schedule during the life cycle of various IT
                     projects. Furthermore, software was not always acquired in a
                     coordinated manner and did not always conform to established
                     standards.




Page 1                                                               Details of Finding
                             Vulnerability Management

         Technical testing of certain Bonneville information systems
         identified significant weaknesses in the areas of access controls,
         patch management and validation of user input. We performed
         vulnerability scanning on nine applications used to support
         Bonneville's business functions related to financial management,
         human resources and security management. Due to concerns from
         Bonneville officials, testing did not include systems operated by
         Bonneville's Transmission Operations organization. We found:

               • Systems had not always been configured to prevent
                 unauthorized access. For instance, our testing identified
                 11 servers that were configured with weak passwords, an
                 issue that could have allowed a knowledgeable attacker to
                 obtain complete access to the system. In addition, four
                 servers were configured to permit all remote users to
                 access and modify shared files – some of which contained
                 potentially sensitive information. Officials commented
                 that they had implemented certain controls to address the
                 weaknesses identified;

               • Patches to address known vulnerabilities had not been
                 applied to software in a timely manner. Our testing
                 identified more than 400 vulnerabilities that were
                 designated as high-risk in the National Vulnerability
                 Database, which is sponsored by the Department of
                 Homeland Security. The vulnerabilities involved
                 weaknesses attributable to seven commercial off-the-shelf
                 (COTS) products utilized by Bonneville that had not been
                 patched when security updates became available. Of
                 those vulnerabilities, 34 percent were more than 18
                 months old, including 33 that were associated with
                 known exploits that had been identified in 2007 or earlier.
                 The vulnerabilities identified were known to allow,
                 among other things, unauthorized access and introduction
                 of malicious code. In response to our report,
                 management disagreed with the total number of unique
                 vulnerabilities but stated that it had taken action to
                 remediate the identified weaknesses. In addition, we
                 identified three servers that were running software that
                 was no longer supported by the manufacturer, a condition
                 which increased the risk of exploit on those servers as
                 patches were no longer being issued when vulnerabilities
                 were identified. Bonneville told us that it was aware of
                 the outdated software issue and that efforts were
                 underway prior to the audit to migrate the servers to a


Page 2                                                  Details of Finding
                  current software version. We noted, however, that a plan
                  to do so had not been completed by the end of our
                  fieldwork; and,

               • Systems reviewed did not always validate user inputs to
                 ensure that the data was in the proper format and met
                 expected criteria. For example, certain servers did not
                 ensure that valid information was received from the user,
                 an action or control designed to prevent attackers from
                 crafting malicious code designed to damage systems or
                 permit the theft of sensitive data.

         When informed of the results of our testing, management indicated
         that actions were being taken to correct the issues we found.
         However, until these vulnerabilities are fully remediated and
         controls are in place to promptly ensure that software is updated in
         an expeditious manner, Bonneville's systems remain at a higher
         than necessary level of risk of exploit by malicious individuals.

                              System Security Controls

         Our testing also revealed a number of issues related to process-
         oriented security controls for five systems. These weaknesses
         could increase the risk of compromise to Bonneville's information
         resources. In particular, we noted weaknesses related to
         implementation of standard security configurations, application of
         least privilege principles, contingency planning and system
         security planning. Specifically:

               • Bonneville had made only limited use of standard
                 security baselines designed to ensure that operating
                 systems were secured. Specifically, even though the U.S.
                 Government Configuration Baseline initiative, formerly
                 the Federal Desktop Core Configuration initiative,
                 required that standard configurations be established for
                 all operating systems used by Federal agencies, we found
                 that Bonneville had developed and implemented standard
                 configurations for only two of its four server operating
                 systems. In commenting on our report, management
                 stated that it anticipated developing and implementing
                 standard configurations for the remaining operating
                 systems in Fiscal Year (FY) 2012. We also identified
                 more than 550 instances of individuals that had local
                 administrative privileges on their desktops or laptops,
                 authority that would have permitted users to make
                 unauthorized security-related changes to their computers;


Page 3                                                   Details of Finding
         • The principle of least privilege was not applied across
           Bonneville's IT environment. Specifically, we identified
           12 instances where regular users had been assigned
           administrative privileges to servers based on group
           membership. Eleven of the 12 instances included
           privileged access given to individuals having no need for
           such permissions, including 3 individuals whose job
           responsibilities required no access to the system. By
           implementing least privilege, officials would have
           provided only the access necessary for individuals to
           perform tasks within their span of responsibility;

         • Contingency plans had not always been developed or
           tested on the systems reviewed. Specifically, only two of
           six systems had contingency plans that were documented
           and tested for effectiveness. Three system owners had
           not developed contingency plans for their systems
           because they stated they were waiting for representatives
           from Bonneville's Office of Business Continuity to
           facilitate the design and drafting of their systems'
           contingency plans. As required by the National Institute
           of Standards and Technology (NIST), information system
           owners should develop, test and revise contingency plans
           on a regular basis as part of maintaining a system's
           operation; and,

         • In one particular instance, we noted various weaknesses
           related to security planning for a major system.
           Specifically, the system, which was hosted by a
           contractor in Canada, had not been categorized to
           determine at what level the confidentiality, integrity and
           availability of the system and its information should be
           protected. In addition, security planning documentation
           did not detail NIST-compliant controls and did not assign
           responsibility for the system to any Federal official.
           Further, although in use, the system had not received
           authority to operate and only recently had a system
           security plan drafted. We also noted that even though
           Bonneville's security functions did not agree with the
           decision to house the system on servers residing in a
           foreign country, the system owners placed it into
           operation. Bonneville subsequently experienced two
           instances wherein numerous documents marked as
           "Official Use Only" were inappropriately housed on the
           system at the contractor's location, thereby increasing the
           risk of unauthorized access. Our review of this system
           was initiated to resolve allegations received through the

Page 4                                             Details of Finding
                  Office of Inspector General's Hotline. Based on the
                  issues noted above, we were able to substantiate the
                  information in the complaint. To its credit, management
                  took a number of actions to implement controls designed
                  to prevent further similar occurrences.

                                Project Management

         We found that multiple projects managed by Bonneville's PMO
         suffered from cost, scope and schedule issues during the projects'
         life cycles. During our detailed review of selected projects
         managed by the PMO, we noted various issues related to project
         planning and management that likely contributed to the observed
         issues.

         In particular, we identified project planning issues with the
         Transmission Asset System (TAS) and noted that the system
         underwent significant modifications to its cost, scope and schedule
         after the business case was initially approved. Cost estimates for
         project completion had been modified at least twice and were
         considerably higher than originally planned. While the TAS project
         was approved for development in 2009 at an estimated cost of
         $4.5 million, the cost to complete the project rose to approximately
         $7.4 million a short time later when it entered the execution phase.
         Subsequently, the estimated cost of the project increased again to
         more than $12 million even though its functionality had been
         significantly reduced. Officials told us that preliminary planning
         costs were only rough estimates and that the planned cost was
         actually $8.3 million. We found, however, that the decision to
         proceed with the project was based, in part, on the original estimate
         of $4.5 million. Officials reported that the project was ultimately
         completed for $11.5 million in July 2011, 16 months later than
         originally planned.

         In addition to widely varying cost estimates for the TAS project,
         we also found that actions undertaken early in the project's
         implementation did not adequately consider or fully define
         requirements. We noted that in at least two instances, elements
         related to scope such as whether the project met user needs and
         system or resource requirements were not adequately considered.
         After a major software application was procured, the project team
         determined that the application may not work with two of the
         groups planning to utilize the project. As a result of the
         incomplete analysis prior to acquiring the software, the project's
         scope was reduced by two-thirds to account for the groups that
         could not utilize the software purchased. In addition, IT equipment
         necessary to support the project was not adequately tested to

Page 5                                                   Details of Finding
         ensure compatibility with Bonneville's approved software suite.
         Specifically, encryption software was not fully tested on certain
         types of computers prior to procurement, and as a result, the
         software was found to be incompatible and will need to be
         replaced. In preliminary comments to our draft report, officials
         stated that the lack of encryption on those devices did not increase
         the risk since information had not been previously encrypted.

         In addition, Bonneville officials reported that the Governance, Risk
         and Compliance (GRC) Resolver project also exceeded its
         estimated cost and schedule even though the initial scope was
         reduced. Although officials initially documented the need for the
         project, we found that planning documentation was high-level and
         did not adequately consider activities related to cost-benefit
         analyses, project schedule or user requirements. For instance,
         while originally intended for use by multiple program offices at
         Bonneville, the scope of the project was reduced so that only one
         office had access to and was utilizing the system. The remainder
         of the project's scope is now proposed to be completed as separate
         projects at additional cost. Bonneville was unable to provide
         documentation to support various phases of the project life cycle,
         including both planning and execution. Even with a decreased
         scope, the project exceeded its initial budget by almost $160,000.

         Similar to issues related to projects managed by the PMO, we also
         identified problems with the Dispatch Logging System managed
         by the Transmission Operations organization. Specifically, we
         found that over the life of the project, the budget had increased by
         approximately $650,000 to $3.2 million. In addition, while
         initially scheduled for completion in May 2005, the project was not
         completed until late in 2010 – approximately 5 years later. As
         with the other projects reviewed, the Dispatch Logging System's
         scope had been modified to include functions that were not
         identified or included as part of the original project planning
         process. Specifically, initial planning documentation did not
         include relevant information related to all components of the
         project, training costs and detailed schedule with dates, milestones
         and resource needs.

                                 Software Standards

         Bonneville had not always adhered to its approved standards when
         procuring software. For example, Bonneville had purchased
         several types of software over a 3-year period that had not been
         properly tested by cyber security and included on an approved
         software list to ensure that it would not conflict with Bonneville's
         operating environment. Our analysis determined that about 50

Page 6                                                    Details of Finding
                  percent of software purchases by Transmission Operations were
                  for software packages not included on the approved listing,
                  compared to only about 7 percent for the rest of Bonneville.
                  Utilizing unapproved software can result in additional costs and a
                  less secure computing environment through the introduction of
                  vulnerabilities in unsupported software.

Policies and      The issues identified were due, in part, to inadequate
Procedures, and   implementation of policies and procedures for security, project
Organization      management and acquisition. We also found that Bonneville had
                  not allocated sufficient resources to effectively manage its IT
                  program. Furthermore, Bonneville's Office of the Chief
                  Information Officer (OCIO) did not have authority over the entire
                  IT program, including certain cyber security and procurement
                  functions.

                                    Security Policy and Procedures

                  Bonneville officials had not ensured that policies and procedures
                  related to cyber security were effectively implemented. For
                  instance, officials had not ensured that procedures for limiting
                  administrative privileges on user accounts were effectively
                  implemented. In addition, although the Bonneville patch
                  management policy required that system owners and
                  administrators remediate or mitigate vulnerabilities, we found that
                  this was not being done for many of the systems reviewed.
                  Contrary to the policy, system owners we spoke with commented
                  that they did not believe patching systems was part of their
                  responsibilities. Similarly, various system owners believed that
                  they were not responsible for implementing other security controls
                  such as access controls, contingency planning and security
                  planning. Representatives for one system commented that the
                  project team and outsourced services provider were responsible for
                  knowing the protection requirements for their system's information
                  instead of the information and system owners. In another case,
                  multiple system owners commented that the responsibility for
                  contingency planning efforts rested with Bonneville's Office of
                  Business Continuity. However, NIST and Bonneville's Program
                  Cyber Security Plan noted that this responsibility lay with system
                  and information owners. Furthermore, we found that the lack of
                  coordination between system owners and cyber security personnel
                  resulted in an increased risk of unauthorized access to potentially
                  sensitive information for one system reviewed. These problems
                  are similar to those identified in our prior report on Cyber Security
                  Risk Management Practices at the Bonneville Power
                  Administration (DOE/IG-0807, December 2008).



Page 7                                                             Details of Finding
            Project Management and Procurement Policy and Procedures

         Several of the project management and acquisition issues we
         identified were also the result of ineffective development and/or
         implementation of requirements designed to ensure adequate
         project planning. Bonneville's System Development Life Cycle
         (SDLC) documented specific project phases but did not require
         that projects be well-defined prior to completion of the planning
         phase. Instead, detailed designs and implementation plans were
         required to be completed during the execution phase. As a result,
         elements such as cost, schedule and scope did not need to be fully
         defined until after a project was approved and execution was
         underway. The ability to begin the execution phase without having
         fully determined a project's expected cost, schedule and scope
         directly contributed to many of the issues we identified.
         Documented project management policies and procedures also did
         not detail actions to be taken to ensure that similar slippages did
         not occur on future projects.

         While management provided oversight related to project changes,
         the project planning process was not always effective.
         Specifically, project managers and their teams did not always
         adhere to SDLC planning requirements and made significant
         changes to project scope during project execution. Specifically, as
         noted previously, the TAS project experienced significant scope
         reductions during its implementation phase because officials
         acquired software that did not support the needs of the entire
         project. In particular, officials eliminated certain components of
         the project that could not be supported by the software purchased –
         deciding instead to focus only on a piece of the originally planned
         project. In addition, the cost of the project nearly tripled over
         initial estimates because project managers did not effectively
         budget for expected costs. Although management was aware of
         the proposed changes, a more effective planning process may have
         reduced the need for such modifications and allowed Bonneville to
         more effectively budget for costs. Similarly, officials reduced the
         scope of the GRC Resolver project because they had not
         adequately planned the project and exhausted funding prior to
         completion.

         In addition, the SDLC did not fully detail the timing of required
         coordination with cyber security during the project management
         process. This lack of clarity contributed to several of the problems
         we noted above, including issues with untested software on the
         TAS project. In comments on our draft report, management stated
         that the SDLC had recently been updated to address many of the
         issues we identified. Based on our review of the updated SDLC, if

Page 8                                                   Details of Finding
         fully implemented and utilized as intended, many of the problems
         identified related to project management could be avoided in the
         future.

         We also identified weaknesses related to implementation of
         Bonneville's procurement policies. Specifically, we noted
         instances where the Supply Chain organization purchased software
         that did not conform to organizational standards even though the
         Bonneville Purchasing Operation Procedures stated that the buying
         decision for requests rested with the Supply Chain. Supply Chain
         representatives stated that they sometimes questioned non-standard
         requests but did not believe they had the expertise to challenge the
         requests or were overruled by the requesting organization. While
         we acknowledge that exceptions to standards are necessary at
         times, we noted that the lack of rigor in the process minimized the
         usefulness of the standards.

                Resource Planning and IT Organizational Placement

         We found that resource allocation decisions at Bonneville likely
         contributed to some of the issues we identified during our audit. In
         addition, the organizational structure of Bonneville did not fully
         support an effective program. For instance, issues related to
         project management were impacted by resource allocation
         strategies. In certain instances, staff at Bonneville told us that they
         lacked adequate resources to develop projects and perform duties
         related to ongoing maintenance and operations. For example,
         programmers for the Dispatch Logging System were frequently
         reassigned to other projects, resulting in missed timelines and
         higher than necessary costs. Similarly, the GRC Resolver project
         manager told us about having to work on three projects and not
         having have sufficient time to spend on managing the project
         effectively. We also noted that the Network Reconstruction
         project was suspended for approximately two years due to a lack of
         server team resources.

         We also noted that lines of authority in its IT program adversely
         affected Bonneville's cyber security posture. For example,
         although the cyber security organization within the OCIO
         performed system control testing and periodic vulnerability
         scanning, it lacked the ability to ensure other organizations
         remediated weaknesses identified as part of testing, significantly
         limiting the value of the testing. In addition, the OCIO did not
         have purview over IT operations and procurements that were part
         of Transmission Operations. These practices were contrary to




Page 9                                                     Details of Finding
                         NIST guidance which states that the Chief Information Officer
                         (CIO) is responsible for developing, maintaining and facilitating
                         the implementation of a sound IT program.

Secure and               Without improvements to its IT program, Bonneville's systems
Cost-Effective           and information may be exposed to a higher than necessary
Information Technology   level of risk of compromise, loss, modification and nonavailability.
Management               In addition, Bonneville may continue to experience problems
                         related to project management and spend more than necessary on
                         IT resources. While we did not identify a direct correlation
                         between the reported project slippages and a failure in
                         management's decision-making processes, the changes did deprive
                         management of the ability to effectively manage its limited
                         resources. Further, it may impact the ability to initiate other
                         projects. Many of the security weaknesses we identified could
                         allow an individual with malicious intent, particularly an insider, to
                         compromise systems and obtain unauthorized access to potentially
                         sensitive information. The number of vulnerabilities we identified
                         was especially troubling given the nature and age of the
                         weaknesses and the lack of an effective, risk-based process for
                         addressing them. During preliminary discussions of our report,
                         Bonneville informed us that it had initiated certain cyber security
                         corrective actions.

                         Similarly, without improved planning and attention to established
                         requirements, ongoing and planned IT projects may continue to
                         experience problems meeting cost and schedule milestones,
                         ultimately impacting Bonneville's mission. Furthermore, given
                         current procurement trends, Bonneville will continue to encounter
                         risks to its systems by introducing unapproved software into the
                         operating environment.

RECOMMENDATIONS          To improve the effectiveness of Bonneville's IT program, we
                         recommend that the Administrator, Bonneville Power
                         Administration:

                               1. Correct, through the implementation of appropriate
                                  controls, the cyber security weaknesses identified in this
                                  report;

                               2. Ensure that policies and procedures are developed, as
                                  appropriate, and are adequately implemented to address
                                  weaknesses related to cyber security, project management
                                  and IT procurement;

                               3. Implement effective resource planning and allocation to
                                  meet IT program needs; and,

Page 10                                                                  Recommendations
                         4. Re-evaluate the authority of Bonneville's OCIO within
                            the organization and take action as necessary to ensure
                            sufficient visibility, accountability and oversight of the IT
                            program.

MANAGEMENT         Management concurred with the report's recommendations and
REACTION AND       indicated that corrective actions would be taken. Management
AUDITOR COMMENTS   commented that it was committed to improving the IT program
                   accordingly and believed that it had made significant improvements
                   in the cyber security and project management programs over recent
                   years. In addition, management expressed concern that the report
                   did not completely reflect the effectiveness and efficiencies of
                   Bonneville's IT program.

                   Management commented that, though it believed it had historically
                   resourced projects adequately, it was committed to improving
                   demand planning capability. Further, while management stated
                   that the positioning and established authority of Bonneville's CIO
                   was appropriate, it commented that it was working to extend the
                   OCIO's authority over the IT program. We found that, while the
                   organizational placement of Bonneville's CIO may have been
                   appropriate, the OCIO did not have authority over the entire IT
                   program, including certain cyber security and procurement
                   functions. As noted in our report, the OCIO was responsible for
                   conducting vulnerability testing of Bonneville's information
                   systems, but did not have the authority to remediate weaknesses,
                   thereby limiting the value of the testing.

                   We have addressed management's comments in more detail in the
                   following paragraphs and made technical changes to the report, as
                   appropriate. Management comments are included in their entirety in
                   Appendix 4.

                                              Cyber Security

                   Management agreed that it needs a more effective patch
                   management program, but stated that the number of high-risk
                   vulnerabilities we identified was duplicative and that the actual
                   number of vulnerabilities was lower than reported. Management
                   also indicated that it was aware of the weaknesses we discovered
                   and had initiated action to remediate the identified vulnerabilities.
                   While management's planned corrective actions are commendable,
                   we disagree with its assertion that the number of vulnerabilities
                   identified was overstated. Specifically, the 400 vulnerabilities
                   referred to in the report were related to unique high-risk
                   vulnerabilities identified during internal vulnerability scanning. In



Page 11                                                                     Comments
          addition, at the time of our test work, management indicated that it
          was unaware of several specific vulnerabilities that we identified.
          We provided management with support for the number of
          vulnerabilities identified, but did not evaluate how many were
          remediated subsequent to our test work. Furthermore, although
          management stated that its passwords met industry standards, we
          found at least one administrative account with a default password.

          Management stated that it had an effort underway to develop
          contingency plans for information systems, as appropriate. In
          particular, officials noted that although formal contingency plans
          did not exist for certain systems, processes were in place that had
          been tested for contingency planning purposes. Management also
          commented that a contingency plan was not required for one of the
          systems reviewed because it was hosted by an offsite vendor.
          However, Bonneville was unable to provide us with documentation
          to demonstrate that it had taken steps to obtain assurance over the
          vendor's contingency planning processes.

                                  Project Management

          Management believed that system development efforts were
          effective and stated that over 80 percent of completed IT projects
          were accomplished within schedule, budget and scope. Although
          we agree that certain measures implemented by Bonneville may
          have enhanced effectiveness such as the establishment of the PMO,
          our report demonstrated that various weaknesses continued to
          exist. Based on our review of documentation provided by
          Bonneville and interviews with project officials, we disagree with
          management's assertion that it completed 80 percent of IT projects
          within schedule, budget and scope. In particular, management's re-
          baselining of projects resulted in projects being reported as
          completed within set parameters even though these projects may
          have significantly exceeded initial cost, scope and schedule
          estimates. As a result, the importance of effective project planning
          was significantly devalued, and systems did not always provide the
          desired capabilities when expected.

          Management agreed that the TAS project underwent significant
          changes to cost, scope and schedule, but stated that the cost figures
          cited in our report were misleading. Specifically, management
          commented that while $4.5 million was an initial cost projection,
          the approved cost after vendor selection and completion of
          planning activities was $8.3 million. Management stated that the
          TAS project was successfully delivered according to its approved
          business case. Management also commented that the areas of



Page 12                                                            Comments
          scope removed from the TAS project were still being pursued by
          the organization. We agree that while the TAS project was
          delivered, it significantly exceeded the estimated cost and
          schedule. As noted in our report, the TAS project experienced
          several re-baselining efforts that culminated in the project being
          completed at nearly three times the cost estimate used to approve
          the development effort. Even though the costs increased, the scope
          of the project was significantly reduced. Although management
          commented that the scope removed from the project was still being
          pursued, our interviews with members of the project team
          indicated that the scope reduction was necessary due to a lack of
          full comprehension of project requirements during the planning
          process.

          Management commented that the GRC Resolver project's scope
          was reduced in an effort to support regulatory compliance that was
          deemed to be the highest priority aspect of the project. In addition,
          management stated that the Dispatch Logging System's delay was
          due to a reallocation of resources and that changes to scope were
          approved by project sponsors. We agree that project changes
          described in management's comments were approved by executive
          sponsors and formal oversight committees. However, as with the
          TAS project, our concerns are centered around the lack of initial
          project planning that contributed to increased costs and timelines,
          and reduced project scope. Best practices for software
          development issued by the Carnegie Mellon Management Institute
          suggest that firm budgets and schedules be developed during
          project planning to enhance the ability of a project being
          completed on time and within budget.

          Management disputed our assertion that Bonneville had inadequate
          resources to manage its IT program. We found, however, that the
          GRC Resolver project suffered from a lack of continuous project
          management. For instance, we noted that the project had at least
          three separate project managers and that information supporting
          the project was not always passed from one manager to the next.
          Ultimately, the project was completed approximately five years
          behind schedule.

          Management disagreed with our assertion that documented project
          management policies and procedures did not detail actions to be
          taken to ensure that schedule slippages did not occur on future
          projects. Although management cited that the Project Manager's
          Handbook stated that managers should avoid having to process IT
          change orders during the execution phase of a project, we found
          that the ability to begin the execution phase without having fully



Page 13                                                           Comments
          determined a project's expected cost, schedule and scope directly
          contributed to many of the issues we identified. Further, policies
          and procedures did not require specific actions to be taken as a
          result of lessons learned during projects that exceeded their
          milestones.

          Management disagreed with our statement that Bonneville did not
          always adhere to SDLC planning requirements and made
          significant changes to project scope during project execution. We
          agree that changes to project scope, schedule and costs occur
          during project life cycles; however, the extent of these changes at
          Bonneville is the reason for our concern. We believe that if
          projects were better planned early in the life cycles, the need to
          initiate significant re-baselining efforts such as those identified
          during our review could be alleviated, and projects may be
          completed more timely and closer to initial budgets.

          Management commented that the SDLC required that detailed
          activities such as development of cost estimates and schedules
          occur prior to project execution getting underway. Management
          also stated that the purpose of the planning phase outlined in the
          SDLC was to perform sufficient planning and analysis to develop
          the business case, and to support a build versus buy decision. In
          addition, management commented that the SDLC had been
          updated to better align planning and execution activities. We agree
          with management's statements regarding the timing of cost
          estimate and schedule development. However, as previously
          mentioned, best practices suggest that these activities should take
          place before a project exits the planning phase. We continue to
          believe that ensuring projects are properly planned prior to
          execution would relieve some of the issues we identified with
          Bonneville's schedule slippages. Bonneville's recently updated
          SDLC appears to address this issue, and we are hopeful that full
          implementation of this document will improve its project
          management process.




Page 14                                                           Comments
Appendix 1

                                     OTHER MATTERS


Prior to our review, the Office of Inspector General received a hotline complaint that alleged
conflicts of interest between the Bonneville Power Administration (Bonneville) and a consulting
firm used to provide supplemental labor in its project management office. The complaint
asserted that the firm provided project managers and staff for all major information technology
projects at Bonneville and stated that Bonneville had utilized the firm's services to perform an
assessment of the Data Center Modernization (DCM) project. Upon completion of the
assessment, the project's scope and staffing were modified to address the firm's
recommendations.

To address the complaint, we performed steps to evaluate management of the DCM project. In
particular, we reviewed and analyzed documentation related to the DCM project, including a
presentation given to Bonneville's Agency Prioritization Steering Committee detailing the results
of the assessment, and interviewed Bonneville officials regarding project management practices.

We were unable to substantiate the allegation of a conflict of interest between Bonneville and its
supplemental labor contractor. Specifically, while the contractor was asked to perform a review
of the project's progress and status, it was neither intended nor required to be an independent
assessment. Rather, it was an internal review intended to inform Bonneville's upper management
of the project's status for the purposes of further funding and prioritization. We also evaluated
project management activities related to DCM and did not identify any significant weaknesses.




Page 15                                                                           Other Matters
Appendix 2

OBJECTIVE     To determine whether the Bonneville Power Administration
              (Bonneville) effectively and efficiently implemented its
              information technology (IT) program.

SCOPE         The audit was performed between October 2010 and March 2012,
              at Bonneville Headquarters in Portland, Oregon. The audit was
              limited to a review of Bonneville's cyber security, IT project
              management and procurement programs. Vulnerability scanning
              was performed on selected business systems at Bonneville.
              However, we did not conduct vulnerability scanning on systems
              managed by Bonneville's Transmission Operations organization.

METHODOLOGY   To accomplish our objective, we:

                   •   Reviewed applicable laws and regulations, including
                       those pertaining to cyber security, IT project management
                       and IT procurement;

                   •   Reviewed applicable standards and guidance issued by
                       the Office of Management and Budget and the National
                       Institute of Standards and Technology;

                   •   Reviewed prior reports issued by the Office of Inspector
                       General and the Department of Energy's Office of Health,
                       Safety and Security;

                   •   Obtained documentation from, and held discussions with,
                       officials from Bonneville's Office of the Chief Information
                       Officer, cyber security, project management, procurement,
                       and Transmission Operations organizations; and,

                   •   Performed internal and external vulnerability scanning to
                       determine vulnerabilities related to specific systems
                       within Bonneville.

              We conducted this performance audit in accordance with generally
              accepted Government auditing standards. Those standards require
              that we plan and perform the audit to obtain sufficient, appropriate
              evidence to provide a reasonable basis for our findings and
              conclusions based on our audit objectives. We believe that the
              evidence obtained provides a reasonable basis for our findings and
              conclusions based on our audit objective. Accordingly, we
              assessed significant internal controls and compliance with laws and
              regulations to the extent necessary to satisfy the objective. In
              particular, we assessed Bonneville's implementation of the
              Government Performance and Results Act of 1993 and determined
              that it had not established performance measures for cyber
              security, project management or procurement.

Page 16                                   Objective, Scope and Methodology
Appendix 2 (continued)

                    Because our review was limited, it would not have necessarily
                    disclosed all internal control deficiencies that may have existed at
                    the time of our audit. We conducted an assessment of computer-
                    processed data relevant to our audit objective and found it to be
                    sufficiently reliable.

                    An exit conference was held with Bonneville officials on March 14,
                    2012.




Page 17                                          Objective, Scope and Methodology
Appendix 3

                                     PRIOR REPORTS


  •   Special Report on Management Challenges at the Department of Energy – Fiscal Year
      2012 (DOE/IG-0858, November 2011). On an annual basis, the Office of Inspector
      General (OIG) identifies what it considers to be the most significant management
      challenges facing the Department of Energy (Department or DOE). The identified
      challenges represent risks inherent in the Department's wide ranging and complex
      operations as well as those related to specific management processes. The OIG's
      management challenge list for Fiscal Year (FY) 2012 includes cyber security, and
      contract and financial assistance award management.

  •   Audit Report on Cyber Security Risk Management Practices at the Bonneville Power
      Administration (DOE/IG-0807, December 2008). The audit identified risk management
      weaknesses related to the certification and accreditation of Bonneville Power
      Administration's (Bonneville) critical information systems. In particular, Bonneville had
      not always appropriately identified and addressed potential risks to critical systems and
      data, to include systems controlling electricity transmission; developed adequate security
      plans for each of the four systems we reviewed; ensured that physical and cyber security
      controls were tested and operating as intended; and, developed corrective action plans
      necessary to resolve weaknesses in a number of important control areas. Problems with
      the certification of these systems – some of which are integral to controlling electrical
      transmission to western portions of the United States – were attributable to Bonneville's
      failure to fully adopt a risk-based approach for implementing security controls that
      satisfied Federal requirements. In addition, Bonneville had not adequately emphasized
      the importance of a robust cyber security program through involvement of system and
      information owners.

  •   Audit Report on Facility Contractor Acquisition and Management of Information
      Technology Hardware (DOE/IG-0768, June 2007). Certain Department facility
      contractors had not adequately managed the acquisition and control of information
      technology (IT) hardware. A number of contractors had not consistently taken advantage
      of opportunities to reduce acquisition and support costs, addressed security concerns
      related to certain aging systems or ensured that accountability was maintained over
      sensitive computers and devices. In particular, we observed that five of the seven sites
      we reviewed had not developed or fully implemented hardware specifications and brand
      standards for computers and related peripherals, directly contributing to unnecessary
      expenditures of at least $4.7 million over a 3-year period. Widely divergent hardware
      replacement cycles contributed to problems ranging from supporting outdated computers
      to replacing equipment before the end of its service life. Sites had not always taken
      advantage of opportunities to achieve volume purchase discounts. Several sites did not
      track certain sensitive IT equipment, including laptop computers and personal digital
      assistants. These problems occurred because the Department had not developed a
      coordinated approach to IT hardware acquisition, management and control.




Page 18                                                                           Prior Reports
Appendix 3 (continued)

  •   Audit Report on Information System Development Practices at the Bonneville and
      Western Area Power Administrations (DOE/IG-0586, February 2003). The audit found
      that Bonneville and Western Area Power Administration (Western) information system
      development activities were not always consistent with Federal requirements or guidance.
      Specifically, we found significant problems with 9 of the 11 major projects included in
      our review. In addition, neither Bonneville nor Western was able to assess the benefits
      versus resource expenditures for development efforts because project managers did not
      consistently account for all relevant project costs. We identified a number of areas in
      which system development activities could be improved. Consequently, management
      often lacked information necessary to properly evaluate investment decisions and did not
      take sufficient action to prevent or ameliorate significant implementation delays and
      project cost overruns totaling over $11 million.




Page 19                                                                        Prior Reports
Appendix 4

             MANAGEMENT COMMENTS




Page 20                            Management Comments
Appendix 4 (continued)




Page 21                  Management Comments
                                                                    IG Report No. DOE/IG-0861

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

     1.   What additional background information about the selection, scheduling, scope, or
          procedures of the audit or inspection would have been helpful to the reader in
          understanding this report?

     2.   What additional information related to findings and recommendations could have been
          included in the report to assist management in implementing corrective actions?

     3.   What format, stylistic, or organizational changes might have made this report's overall
          message more clear to the reader?

     4.   What additional actions could the Office of Inspector General have taken on the issues
          discussed in this report which would have been helpful?

     5.   Please include your name and telephone number so that we may contact you should
          we have any questions about your comments.

Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
